                                            Department of Energy
                                                 Washington, DC 20585

                                                 September 1, 2004




The Honorable Gaston L. Gianni, Jr.
Inspector General
Federal Deposit Insurance Corporation
801 17th Street, NW, Room 1096
Washington, D.C. 20434

Dear Mr. Gianni:

We have reviewed the system of quality control for the audit function of the Federal Deposit
Insurance Corporation (FDIC) Office of Inspector General (OIG) in effect for the year ended
March 31, 2004. We conducted our review in conformity with standards and guidelines
established by the President's Council on Integrity and Efficiency (PCIE). We tested compliance
with the FDIC OIG's system of quality control to the extent we considered appropriate. These
tests included a review of the audits identified in the Enclosure.

In performing our review, we considered the Policy Statement on Quality Control and External
Reviews, dated February 2002, issued by the PCIE. According to that Statement, an OIG's
quality control policies and procedures should be appropriately comprehensive and suitably
designed to provide reasonable assurance that the objectives of quality control will be met. The
Statement also recognizes that the nature, extent and formality of an OIG's system of quality
control depends on various factors such as the size of the OIG, the location of its offices, the
nature of the work, and its organizational structure.

In our opinion, the system of quality control for the audit function of the FDIC OIG in effect for
the year ended March 31, 2004, has been designed in accordance with the quality standards
established by the PCIE and was being complied with for the year then ended to provide the OIG
with reasonable assurance of material compliance with professional auditing standards in the
conduct of its audits. Therefore, we are issuing an unqualified opinion on your system of audit
quality control.

We have identified, in a separate Letter of Comments dated August 31, 2004, other matters that
came to our attention which do not affect our overall opinion.

                                             Sincerely,




                                             Gregory H. Friedman
                                             Inspector General
Enclosure
Scope and Methodology

We conducted the Peer Review in accordance with the PCIE Guide for Conducting External
Quality Control Reviews of the Audit Operations of Offices of Inspector General, issued during
February 2002, and subsequently revised through March 2004.

We reviewed the last peer review report on the FDIC OIG audit function, issued by the U.S.
Agency for International Development on January 25, 2002, and the related peer review working
papers. To obtain an understanding of the audit operation and the internal quality control
system, we reviewed the FDIC OIG’s audit policies and procedures. We considered controls
such as those in place to ensure that only qualified staff is hired, that continuing professional
education requirements are met, and that independence is maintained. To obtain an
understanding of the FDIC OIG’s internal quality assurance program, we reviewed related
policies and procedures, interviewed responsible staff, and reviewed internal quality assurance
reports.

We tested compliance with the FDIC OIG’s system of quality control to the extent that we
considered appropriate. These tests included a review of 6 of 36 audit reports issued between
April 1, 2003, and March 31, 2004. We did not review the financial statement audit and
monitoring activities covering the FY 2003 financial statements for the FDIC OIG since that
audit is performed by the U.S. General Accounting Office.

The report numbers and titles of the selected audits are listed in the table below.

                                         Audits Reviewed


Report Number         Report Date                              Report Title

03-038              09/12/2003         The Role of Prompt Corrective Action (PCA) as Part of the
                                       Enforcement Process
03-045              09/29/2003         New Financial Environment Scope Management Controls
03-047              09/30/2003         Contract Terms and Oversight Management Related to
                                       ARAMARK Services Inc.,
                                       Contract No. 00-00611-C-J3
04-012              03/16/2004         Tennessee Land Investors Limited Partnership
04-013              03/26/2004         FDIC’s Reliance on State Safety and Soundness
                                       Examinations
04-014              03/26/2004         XBAT Contracting and Project Management




                                                 2
                                             Department of Energy
                                                  Washington, DC 20585

                                                  September 1, 2004




The Honorable Gaston L. Gianni, Jr.
Inspector General
Federal Deposit Insurance Corporation
801 17th Street, NW, Room 1096
Washington, D.C. 20434

Dear Mr. Gianni:

We have reviewed the system of quality control for the audit function of Federal Deposit
Insurance Corporation Office of Inspector General (FDIC OIG) in effect for the year ended
March 31, 2004, and have issued our report thereon dated August 31, 2004, in which we
rendered an unqualified opinion on the FDIC OIG system of quality control for its audit function.
This letter should be read in conjunction with that report.

Our review was for the purpose of reporting whether the OIG’s internal quality control system
was designed in accordance with the quality standards established by the President’s Council on
Integrity and Efficiency (PCIE) and was being complied with that system for the year reviewed
to provide reasonable assurance of material compliance with professional auditing standards in
the conduct of its audits. We conducted our review in conformity with standards and guidelines
established by the PCIE. Our review would not necessarily disclose all weaknesses in the system
or all instances of noncompliance with it because our review was based on selective tests.

There are inherent limitations that should be recognized in considering the potential effectiveness
of any system of quality control. In the performance of most control procedures, departures can
result from misunderstanding of instructions, mistakes of judgment, carelessness, or other
personal factors. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that one or more procedures may become inadequate because of changes in
conditions or that the degree of compliance with procedures may deteriorate.

As a result of our review, we identified reportable conditions, which we considered in
determining our opinion set forth in our report dated August 31, 2004. A reportable condition
for peer review purposes represents a significant deficiency in the design or operation of the
reviewed organization’s internal control that could adversely affect the organization’s ability to
comply with applicable auditing standards and established auditing policies and procedures.

The two reportable conditions that we identified are discussed in the following paragraphs.
During our review, we provided additional information about these conditions, including a listing
of the applicable audits, to your office.
Reportable Conditions

We believe that the conditions addressed in this section represent opportunities for improvement
of the FDIC OIG’s system of quality control. While we did not identify a material effect to the
reported audit findings and conclusions resulting from the conditions discussed below, we
believe that the potential exists for these conditions to adversely affect audit operations.

It should be noted that the FDIC OIG's internal quality assurance program identified some of the
same issues that we raise as a result of our peer review. We were advised that corrective actions
had been taken, as detailed in the recent concurrence by the Director of Supervision and
Insurance Audits to the internal quality assurance report dated April 20, 2004.

In performing our work, we considered the results of the prior peer review of the FDIC OIG, for
which the U.S. Agency for International Development issued a report dated January 25, 2002.
We found that the nine open recommendations contained in the Letter of Comments from that
peer review have been addressed.

Finding 1. Quality Control – Review and Resolution of Referencing Points

The FDIC OIG considers referencing to be one of the key aspects of its internal control system,
and an essential step in ensuring overall audit report quality. Policies and procedures have been
established for indexing reports to supporting assignment documentation and the subsequent
verification of the supporting evidence by an independent referencer as a control to assure
compliance with the Government Auditing Standards requirement for reporting accuracy.

The FDIC OIG Audit Manual 330.2 – Indexing and Referencing of Reports requires the Auditor-
in-Charge to respond to points raised by the independent referencer on the Referencing Point
Sheet with comments as to the action taken to indicate whether changes were made in response
to issues/questions identified. Any remaining open points should be submitted to the Director
for review and possible resolution. After all the points have been resolved, the Auditor-in-
Charge, independent referencer, and Director are required to sign the Referencing Point Sheet. If
the comments cannot be resolved between the referencer, Auditor-in-Charge, and Director, the
comments should be elevated to the Deputy Assistant Inspector General for Audits (DAIGA) for
resolution. Only the DAIGA can pass on points identified by the referencer. In addition to the
Referencing Point Sheet, the Audit Manual also requires completion of the Referencing
Checklist to ensure that referencing requirements have been performed. This checklist has
separate sections for the Director, Auditor-in-Charge, and referencer to complete and sign
certifying that all referencer’s comments have been adequately resolved. The Director has
overall responsibility for ensuring that reports are fully indexed to supporting documentation and
independently referenced.

We noted that four of the six audits reviewed did not have the Auditor-in-Charge’s response or
actions taken to resolve all of the points raised by the referencer. In addition, one audit had no
signature on the Referencing Checklist to indicate final approval by the Director. FDIC OIG
management explained that there were other certification forms signed by the Director, Auditor-
in-Charge and referencer that are designed to provide assurance on the quality of the report.
These certification forms are meant as an additional compensating control. However, we feel if


                                                2
the required detailed documentation of the process they are intended to certify is incomplete, the
additional assurance that outstanding referencer points are addressed is lacking.

Recommendation. FDIC OIG management should reemphasize its policy on referencing and
completion of the Referencing Point Sheet and Referencing Checklist. Specific emphasis should
be placed on existing requirements for the Auditor-in-Charge to document all responses and/or
actions taken to resolve the points raised by the referencer and the Director to sign off certifying
that all referencing points have been adequately resolved.

Views of Responsible Officials. FDIC OIG management concurred and plans to issue a staff
advisory by October 22, 2004, reemphasizing the policy on referencing, including completion of
the Referencing Point Sheet and the Referencing Checklist. On August 10, 2004, the
Referencing Point Sheet was enhanced to include an additional column for the referncer to initial
his/her agreement to the Auditor’s individual responses/actions; and an “All Cleared” box is now
included on the form for the referencer’s initials and date satisfying such action has occurred. In
addition, training to cover the independent referencing process is planned for November 2004.

Finding 2. Supervisory Review and Documentation

The second field work standard for performance audits under Government Auditing Standards is
staff is to be properly supervised. Supervision involves directing the efforts of auditors and
others that are involved in the audit to determine whether the audit objectives are being
accomplished. The FDIC OIG Audit Manual expresses the view that supervision is one of the
most important aspects of ensuring assignment quality and that these reviews of assigned work
must be documented and maintained in the assignment documentation. By conducting reviews,
supervisors can also satisfy themselves that the staff clearly understands what work is expected
to be performed, why the work is being conducted and what the work is expected to accomplish.
There should be documented evidence of supervisory reviews in the assignment documentation.
To be beneficial, the supervisory involvement must start early in the audit and continue in a
timely manner to ensure that the efforts are redirected, when appropriate, and that all of the
necessary work is performed. In our review, three issues surfaced involving documentation to
support that all assigned work was performed and that the staff was being provided with timely
supervision.

The FDIC OIG Audit Manual 320.6 – Preparation and Review of Assignment Documentation
requires supervisory review of assignment documentation be documented and retained. The
Auditor-in-Charge is responsible for monitoring and oversight of assigned staff and for
reviewing all assignment documentation they prepare. The Office of Audits Director is
responsible for reviewing all assignment documentation prepared by the auditor-in-charge.
These supervisory reviews must be made periodically to ensure that the work is progressing
satisfactorily and supports the reported findings, opinions, conclusions and recommendations.

Our review noted that not all work papers had the required documentation as evidence of
supervisory reviews. We found assignment documentation that was (i) not signed off by the
preparer and reviewer; (ii) dated as being reviewed before the date they were prepared; (iii) not
indexed and cross-indexed or was incorrectly indexed; and, (iv) prepared and reviewed by the
same person. We also found open reviewer notes, signatures missing from checklists, and


                                                 3
incomplete checklists. Since the previous peer review, the FDIC OIG implemented an electronic
work paper software program to document audits. Most of the lacking documentation of timely
supervisory reviews can be attributed to the recent implementation of TeamMate and the fact that
supervisory reviews are required each time a work paper is modified.

We did find evidence of adequate levels of supervision from planning to audit report issuance on
key control documents. However, the missing sign-off dates and checklists indicate that
documentation related to supervision needs improvement to ensure evidence that supervisory
reviews were performed.

The FDIC OIG Audit Manual 320.3 – Assignment Programs states that the assignment program
represents a contract between the Office of Audits Director and the team concerning the work to
be performed. The purpose of assignment programs is to provide early guidance and an
understanding between a supervisor and staff on the detailed procedures and techniques for
collecting and analyzing sufficient, competent, and relevant evidence to address the assignment
objectives within the approved milestones. The Manual requires all assignment program steps be
indexed to the supporting documentation. Any step not performed should be annotated to
provide a brief explanation to why the step was not performed. The Manual also states that if
major changes in the scope occur as the assignment proceeds, the program should be modified
and the Office of Audits Director should approve any major changes.

For two of the six audits reviewed, we found some assignment program steps that were not
indexed to supporting documentation. Even though workpaper indexing on the approved
assignment program was absent, we noted that the program steps were sufficiently performed to
answer the audit objectives. However, by not indexing the workpapers to the assignment
program, steps appeared to be omitted from the audit and there is an increased risk that all the
required work needed to support coverage of the audit objective was not completed during the
assignment.

The FDIC OIG Audit Manual 320.6 – Preparation and Review of Assignment Documentation
requires that assignment documentation must contain the purpose for preparing the
documentation, the source of the information, the scope of the review, applicable criteria,
sufficient explanation of analytical methods and formulas used, the results of the review, and the
assignment team’s conclusions.

We found workpapers that did not always contain the required elements for the six audits
reviewed. However, none of these examples affected the accuracy of the final audit reports.
Audit documentation (1) provides the principal support for the auditor's report; (2) aids auditors
in conducting and supervising the audit; and, (3) allows for the independent review of audit
quality. The preparation of audit documentation should be appropriately detailed to provide a
clear understanding of its purpose, source and the conclusions the auditors reached. It should
also be organized to provide a clear link to the findings, conclusions, and recommendations
contained in the audit report.

Recommendation. – FDIC OIG management should reemphasize its existing policy (1) to index
supporting documentation to completed steps in the audit program; (2) that requires proper
documentation to show evidence of supervision in all workpaper files; and (3) to include all four


                                                 4
elements on each workpaper or include a reference to where the four elements can be found
elsewhere in the workpaper files.

Views of Responsible Officials. FDIC OIG management concurred and stated after the audits
subject to peer review were completed, additional guidance was issued to staff that discussed
procedures for preparing audit documentation (work paper files) as the assignment progresses
and archiving audit documentation upon assignment completion. Specific actions included staff
advisories on Assignment Documentation (dated March 26, 2004) and Supervision (dated April
13, 2004), and administrative procedures on Archiving Office of Audits Assignment
Documentation (dated March 31, 2004). In addition, training to reemphasize the policy on
supervisory reviews and documentation, to include the specific elements identified above is
planned for November 2004.

We appreciate the cooperation and courtesies extended by your audit executives and staff to our
peer review team.

                                            Sincerely,




                                            Gregory H. Friedman
                                            Inspector General
Enclosure




                                               5
Federal Deposit Insurance Corporation                                                         Office of Audits
801 17th Street NW, Washington, DC 20434                                         Office of Inspector General




DATE:                                  December 8, 2004

MEMORANDUM TO:                         Gaston L. Gianni, Jr.
                                       Inspector General



FROM:                                  Russell A. Rau
                                       Assistant Inspector General for Audits

SUBJECT:                               Completion of Corrective Actions Recommended During
                                       Recent Peer Review

The Department of Energy’s Office of Inspector General (DOE OIG) conducted an external peer
quality assurance review of the Office of Audits (OA) and concluded that our system of quality
control has been designed in accordance with the quality standards established by the President's
Council on Integrity and Efficiency and provided reasonable assurance of conforming with
applicable professional standards, including Government Auditing Standards. In a separate
Letter of Comments (LOC) dated August 31, 2004, the DOE OIG discussed matters that came to
its attention in the course of its review that did not affect its overall opinion but required
corrective action. The LOC provided two recommendations for corrective action, and the OA
has completed steps necessary to resolve and disposition both of them.

A description of each of the DOE OIG’s recommendations, our response to their
recommendations, and the corrective action implementation chronology are provided in the
attachment.

Please let me know if you have any questions.

Attachment

cc:      Patricia M. Black
         Sharon M. Smith
         Stephen M. Beard
                                                          Office of Audits
                             Matrix of 2004 Peer Review Recommendations and Corrective Action Status
                                                          December 2004
No.       Recommendation                            Corrective Action                                                                        Corrective Action
                                                                                                                                             Status
    1     Quality Control – Review and              (1) We will develop and conduct training covering the independent referencing            Completed December 2, 2004.1
          Resolution of Referencing Points.         process that will reemphasize the policy on referencing, including completion of the
          FDIC OIG management should                enhanced Referencing Point Sheet and Referencing Checklist. We also plan to
          reemphasize its policy on referencing     conduct referencing training at our staff conference in December 2004. Corrective
          and completion of the Referencing         action will be completed by December 31, 2004.
          Point Sheet and Referencing Checklist.
          Specifically, emphasis should be placed   (2) We will develop and issue a staff advisory reemphasizing the policy on
          on existing requirements for the          referencing, including completion of the enhanced Referencing Point Sheet and the        Completed November 24, 2004.
          Auditor-in-Charge to document all         Referencing Checklist. Corrective action will be completed by October 22, 2004.
          responses and/or actions taken to
          resolve the points raised by the          (3) We enhanced the Referencing Point Sheet to include an additional column for
          referencer and the Director to sign off   the referencer to initial his/her agreement to the auditor's individual
          certifying that all referencing points    responses/actions. Further, an “All Cleared” box appears on the form for the             Completed August 10, 2004.
          have been adequately resolved.            referencer’s initial and date, signifying such action has occurred. The revised
          .                                         Referencing Point Sheet is now part of the standard referencing assignment
                                                    instructions. Corrective action was completed on August 10, 2004.

    2     Supervisory Review and                    (4) After the audits subject to peer review were completed, we issued additional         Completed April 13, 2004.
          Documentation. FDIC OIG                   guidance to staff that discusses procedures for preparing audit documentation (working
          management should reemphasize its         paper files) as the assignment progresses and archiving audit documentation upon
          existing policy (1) to index supporting   assignment completion. Specific actions include staff advisories on Assignment
          documentation to completed steps in       Documentation (dated March 26, 2004) and Supervision (dated April 13, 2004), and
          the audit program; (2) that requires      our administrative procedures on Archiving Office of Audits Assignment
          proper documentation to show evidence     Documentation (dated March 31, 2004). Corrective action was completed on
          of supervision in all working paper       April 13, 2004.
          files; and (3) to include all four
          elements on each working paper or         (5) We will conduct training to reemphasize the policy on supervisory reviews and
          include a reference to where the four     documentation. In conjunction with the corrective action item (1), the course content    Completed December 2, 2004.2
          elements can be found elsewhere in the    will be expanded to include the specific elements identified in the recommendation of
          working paper files.                      Finding 2. Corrective action will be completed by December 31, 2004.




1
    Training provided at the Office of Audits staff conference, December 1-3, 2004.
2
    Ibid.
